  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ACO                   Administrative Contracting Officer
CAM                   Contract Audit Manual
CPSR                  Contractor Purchasing System Review
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DFARS                 Defense Federal Acquisition Regulation
FAR                   Federal Acquisition Regulation
GAGAS                 Generally Accepted Government Auditing Standards
PSA                   Purchasing System Analyst
RAMP                  Risk Assessment Management Program
          Office of the Inspector General of the Department of Defense

Report No. D-2003-6-001                                               November 6, 2002
   (Project No. D2001OA-0106)


              DoD Oversight of Contractor Purchasing Systems

                                Executive Summary

Who Should Read This Report and Why? This report should be read by DoD
purchasing system analysts and auditors who review contractor purchasing systems and
administrative contracting officers (ACOs) who determine the need for the reviews,
receive the resulting reports, and approve the purchasing systems. The report explains
how analysts and auditors can improve planning and review coverage, while avoiding
duplicative or overlapping reviews.

Background. The report discusses the planning, coordination, and performance of DoD
reviews and audits of contractor purchasing systems by Defense Contract Management
Agency (DCMA) procurement analysts and Defense Contract Audit Agency (DCAA)
auditors. A contractor purchasing system is the process and procedures by which a
contractor obtains subcontracts and purchases other material. The ACO must consider
the need for a review of the purchasing system if a contractor’s negotiated sales to the
Government are expected to exceed $25 million during the next 12 months. The review
results are used to support the approval of a contractor’s purchasing system, which is
crucial for mitigating the risks associated with contracts awarded non-competitively or
subcontract costs passed to the Government.

Results. Although the purchasing system reviews were generally adequate for the
13 reviews and 12 audits done by DCMA and DCAA, respectively, improvements were
needed in planning, coordination, and documentation. The DCMA and DCAA review
the same contractor purchasing system. Therefore, DCMA and DCAA should jointly
reengineer their processes to more effectively meet the needs of both organizations, avoid
duplication, and effectively leverage the resources of both organizations. Excellent
examples of effective planning and coordination between DCMA and DCAA were
demonstrated at three contractor facilities (see Finding A). In addition, although DCMA
reviews were adequate, the risk assessment that they used needed improvement (see
Finding B).

Management Comments and Evaluation Response. The Executive Director, Contract
Management Operations, DCMA agreed with the recommendations. However, in
response to the recommendation to jointly, with DCAA, reengineer the planning process
for the system revisions, he proposed reemphasizing the same procedures that have not
worked in the past. To reengineer the CPSR process, DCMA needs to work with DCAA
to develop new policies and procedures to accommodate the needs of both organizations
and address the deficiencies raised in this report. A final response should include an
agenda for working with the DCAA and an action plan for revising the DCMA
Directive 1 Contract Management “One Book.” We request that the Director, DCMA
provide additional comments by December 12, 2002.

The Assistant Director, Policy and Plans, DCAA concurred in principle and will work
with DCMA to re-evaluate its planning and coordination processes for conducting audits
of contractor purchasing systems. By January 31, 2003, DCAA will issue a
Memorandum for Regional Directors, after coordination with DCMA, to provide audit
guidance to field auditors on the enhanced coordination and planning process.




                                            ii
Table of Contents

Executive Summary                               i


Background                                     1


Objectives                                     2


Finding
     A. Planning and Coordination of Reviews    3
     B. Performance of Reviews                 11

Appendixes
     A. Scope and Methodology                  16
        Management Control Program Review      18
        Prior Coverage                         18
     B. Comparison of Review Coverage          19
     C. Report Distribution                    20

Management Comments
     Defense Contract Audit Agency             21
     Defense Contract Management Agency        23
Background
    Contractor management is responsible for establishing and maintaining adequate
    internal controls. A good system of internal controls provides reasonable
    assurance that assets are safeguarded against losses, that transactions are executed
    with management authorization and properly recorded, and that applicable laws
    and regulations are met. A contractor’s purchasing system should encompass
    adequate internal controls over purchasing transactions.

    Contractor Purchasing System. A contractor’s purchasing system is the
    processes and procedures by which a contractor obtains subcontracts and
    purchases other materials. These processes include make or buy decisions, the
    selection of vendors, analysis of quoted prices, negotiation of prices with vendors,
    the placing and administration of orders, and expediting delivery of materials.
    The Government is at risk when prime contracts are awarded noncompetitively or
    when the contract with the Government allows the contractor to pass all
    subcontract costs on to the Government. The Consent to Subcontract/Contractor
    Purchasing System Review process provides the most effective and efficient
    means to deal with these risks.

           Consent to Subcontract. In certain circumstances, the contract may
    include a Consent to Subcontract clause, which requires the contractor to obtain
    Administrative Contracting Officer (ACO) approval of the subcontract when the
    contractor itself does not have an approved purchasing system. An effective
    purchasing system, approved by the ACO, can substantially reduce the number of
    subcontracts that must first be approved by the ACO.

            Contractor Purchasing System Reviews. A Contractor Purchasing
    System Review (CPSR) assists a contracting officer in determining whether to
    approve a contractor’s purchasing system. An approved system allows the
    contracting officer to waive subcontract advance notifications or consent to
    subcontract actions. The CPSR also provides early cost accounting standard
    information on which to base source selection decisions and profit/fee negotiation
    positions.

    Federal Acquisition Regulation (FAR) Subpart 44.201, Consent and Advance
    Notification Requirements, specifies that unless a contractor has an approved
    purchasing system, contracting officer consent to subcontract is required for
    certain contracts. The FAR specifies that the ACO shall determine the need for a
    CPSR based on, but not limited to, the past performance of the contractor and the
    volume, complexity, and dollar value of subcontracts. The need for a CPSR must
    be considered if a contractor’s negotiated sales to the Government are expected to
    exceed $25 million during the next 12 months.

            Performance of the Reviews. The Defense Federal Acquisition
    Regulation (DFARS) Subpart 244.3, CPSRs, specifies that the ACO is
    responsible for reviewing contractor purchasing systems. Therefore, members of
    other organizations, such as audit or program management activities, should not
    conduct separate reviews of a contractor’s purchasing system but may participate
    in a review conducted for the ACO by Purchasing System Analysts (PSAs).


                                         1
    During FYs 1998 through 2000, the Defense Contract Management Agency
    (DCMA) completed 445 CPSRs, or an average of 148 reviews per year. At the
    time of our evaluation, the DCMA had a CPSR staff of 32 compared to personnel
    strength of 42 in 1999 and 102 in 1994. The staff size represents a 69 percent
    decline since 1994. As a result of declining resources, DCMA guidance
    emphasizes risk assessments to plan and conduct reviews for maximum
    efficiencies.

    Defense Contract Audit Agency Audits of Internal Controls. The Defense
    Contract Audit Agency (DCAA) audits contractor internal controls to determine
    whether the controls are adequate to permit the preparation of Government cost
    representations in accordance with generally accepted accounting principles and
    applicable laws and regulations. A contractor’s internal controls consist of five
    interrelated components: control environment; risk assessments; control activities;
    information and communication; and monitoring. DCAA also uses the results of
    their audits of internal controls to plan other necessary audits at contractor
    facilities.

    To avoid audit duplication or overlap with CPSRs, DCAA guidance requires the
    auditor to notify the ACO prior to initiating an audit of purchasing system
    controls and to coordinate with the CPSR team. The DCAA performed 498
    purchasing system audits in FYs 1998 through 2001 or about 125 audits per year.
    The DCAA audit program, summarized in Appendix B, Comparison of Review
    Coverage, incorporates procedures for reviewing the adequacy of those
    components of internal controls.


Objectives
    The objective was to evaluate the overall adequacy of CPSRs performed jointly
    by the DCAA and the DCMA. The review included an evaluation of the use of
    audit support services and the overall quality and extent of audit services the
    DCAA provides to the DCMA. In addition, we assessed the adequacy of the
    management control programs at DCAA and DCMA field offices relative to the
    overall objective (see Appendix A).




                                         2
           A. Planning and Coordination of Reviews
           Based on our evaluation of 13 DCMA reviews and 12 DCAA audits,
           planning and coordination of reviews of contractor purchasing systems,
           including the sharing of annual plans and review guides, and the use of
           audit services, needed improvement. Although the DCMA CPSRs and
           DCAA audits of purchasing system internal controls have different
           objectives, the reviews to a large extent covered the same areas. However,
           the agencies did not share annual plans, and the DCMA guidance did not
           stress the importance of auditor participation in joint reviews to avoid
           duplication. The DCMA requested only limited audit support from
           DCAA at locations where DCAA audited significant contractor dollars.
           Further, of 11 DCAA audits that required coordination with the ACO or
           the CPSR team, 6 did not include adequate information to explain the
           extent of coordination attempts. The DCAA standard audit program
           emphasizes the need to coordinate with the ACO in an introductory note
           that does not instruct the auditor to document all coordination efforts. The
           conditions occurred because DCMA and DCAA do not have joint
           planning processes. Excellent examples of effective planning and
           coordination were demonstrated at three contractor facilities. Inadequate
           coordination may result in overlapping reviews and inefficient use of
           resources.


Comparison of Review Objectives
    The DCMA and DCAA have different objectives when reviewing a contractor’s
    purchasing system. However, to accomplish the objectives, the two agencies need
    access to the same contractor information.

    Defense Contract Management Agency. A CPSR performed by the DCMA
    provides the ACO the basis for granting, withholding, or withdrawing approval of
    a contractor's purchasing system. According to the DCMA One Book,
    Chapter 7.4, “Consent to Subcontract/CPSR,” the primary objective of the
    Consent to Subcontract/CPSR process is to improve the effectiveness and
    efficiency of contractors’ purchasing systems. A second objective is to reduce the
    risk to the Government when prime contracts are awarded noncompetitively or
    when the prime contract allows the prime contractor to pass all subcontract costs
    on to the Government.

    Defense Contract Audit Agency. The DCAA audits of purchasing system
    internal controls are designed to meet the audit requirements outlined in the
    Contract Audit Manual (CAM) Chapter 5-600, “Audit of Purchasing System
    Internal Controls,” that implement Generally Accepted Government Auditing




                                        3
    Standards (GAGAS). The fieldwork standard for financial audits on internal
    controls, GAGAS 4.21, states that auditors should obtain a sufficient
    understanding of internal controls to plan the audit and determine the nature,
    timing, and extent of tests to be performed.

    The DCAA is concerned with assessing the adequacy of internal controls at major
    contractor∗ locations but considers the materiality of transactions processed
    through a system when determining the need for an audit of that system. The
    CAM, Chapter 3-305, “Preparation of the Internal Control Audit Planning
    Summary,” instructs the auditor to assess the adequacy of internal controls for
    those contractor accounting and management systems that may have a significant
    impact on the pricing, administration, or settlement of Government contracts. A
    contractor’s purchasing system is 1 of 10 accounting and management systems to
    which the audit guidance applies. The auditor should consider performing a
    purchasing system internal control review if the transactions processed through
    the system are material in relation to the magnitude of the contractor’s total
    operations.

    Not only does the audit of the internal controls tell management whether the
    controls are working as planned, but the auditor uses the results of internal control
    reviews when planning all other audits, for example incurred costs, forward
    pricing, and defective pricing at major contractor locations.


Comparison of Review Coverage
    The DCMA One Book, Chapter 7.4, Attachment 3, of the CPSR Guidebook,
    explains that a CPSR should cover a review of policies, procedures, and forms; a
    review of a random sample of purchase orders and subcontracts; a compilation
    and analysis of statistics; interviews with contractor personnel; and input from
    technical specialists, including auditors. Although the DMCA One Book outlines
    the areas for review of a contractor’s purchasing system, the guidance does not
    include detailed instructions for the review, or a review guide.
    Scope of Work in a CPSR. The 13 reviews we evaluated in the 3 DCMA offices
    covered all areas described in the CPSR Guidebook. The extent of review
    coverage was based on CPSR report contents and discussions with the eight
    analysts that performed the reviews. When reviewing a sample of purchase
    orders, the CPSR team completed the following procedures:

        •   Reviewed purchase order files for required certifications and
            documentation;

        •   Compiled data from review of purchase order files using the CPSR
            software program or spreadsheets; and,

        •   Analyzed the compiled statistical data for trends and indicators.

    * For DCAA planning purposes, a major contractor is a contractor with $80 million or more in
     costs subject to audit in a single fiscal year.



                                               4
    The team also interviewed contractor management personnel to cover specific
    areas not covered by the purchase order file review and gathered information from
    DCAA auditors and Government specialists in engineering, property,
    transportation, and other areas.

    Although the CPSR Guidebook did not contain explicit instructions for
    completing the reviews, all the PSAs (Purchasing System Analysts) used similar
    review procedures. Each PSA had 16 years or more experience. One analyst
    demonstrated that the actual scope of review performed closely compared to the
    instructions in the 1991 edition of the Defense Federal Acquisition Regulation
    Supplement (DFARS), Appendix C. We compared the 1991 DFARS guidance to
    the CPSR Guidebook and concluded that the specific procedures outlined in the
    DFARS provides better instructions than the CPSR Guidebook and may be used
    to tailor a CPSR review program. A CPSR review program is essential to identify
    the areas and review procedures that should be coordinated with auditors. The
    detailed instructions and procedures outlined in a review program should also
    serve as an instructional tool to benefit new employees. The need to plan for new
    hires is identified as one of the initiatives in the President’s Management Agenda
    for FY 2002, which addresses the problem that may be caused by large-scale
    retirements of eligible employees within a few years. The knowledge and
    expertise of current employees must, therefore, be conveyed to new employees
    through clear instructions or training tools.

    Similarity of DCMA and DCAA Procedures. We compared the audit areas
    covered in the DCAA standard audit program with the CPSR scope of review and
    determined that six of the eight main sections in the DCAA audit program
    potentially overlap with the CPSR coverage. Appendix B, “Comparison of
    DCAA and DCMA Review Procedures,” shows the areas that overlap.


Current Planning and Coordination
    DCAA and DCMA currently have separate planning processes but are supposed
    to coordinate their work efforts.
    DCMA Planning. The DCMA One Book requires the CPSR team to develop a
    master schedule of CPSRs to be conducted during the next 12 months and provide
    copies to the district CPSR focal point, DCAA, Headquarters NASA, the
    cognizant ACOs and, when warranted, the Procurement Contracting Officers.
    The reviews to be scheduled are determined based on risk assessments
    (see finding B).

            Coordination of Annual Plans. Two of the three DCMA offices visited
    sent an annual schedule of CPSRs to the cognizant audit offices. The third office
    established a master schedule on a local shared network for the use of ACOs but
    did not provide the information to the affected DCAA field audit offices. The
    DCAA manager of one audit office cognizant of several major contractors stated
    that an annual schedule of planned CPSRs would be very useful for developing
    the DCAA audit plans. However, he had never received an annual CPSR
    schedule.



                                        5
        Requesting Audit Services. The planning and coordination of the
DCMA reviews should include considerations of when and how to use DCAA
audit assistance. The CPSR Guidebook, instructs the CPSR team chief on the role
of the DCAA auditor when participating on CPSR teams. Accordingly, DCAA
should be assigned three specific topics: material estimating, prompt payment
discounts, and interdivisional transfers. Audit coverage of prompt payment
discounts is incorporated into the standard audit program for purchasing system
internal controls. DCAA reviews material estimating as part of an audit of the
internal controls of the contractor’s material estimating system. Contractor
procedures for interdivisional transfers may be tested during incurred cost audits
or price proposal reviews. Therefore, DCMA requests of DCAA cover only a
part of what DCAA is required to address in a purchasing system internal control
audit. The team supervisor should also conduct a pre-review meeting with
Government personnel, including DCAA, on the first day of the on-site field visit.
Government personnel should be invited to share with the team any purchasing
system-related reviews and audits that may have been conducted during the
previous 12 months, which may enable the team to forgo duplicative effort.

The audit support appeared adequate for the requested audits. However, three of
the seven audits concerned major contractors, where DCAA is required to
complete audits of purchasing system internal controls to meet GAGAS.
Therefore, the DCMA could have requested audit coverage of more than three
areas. At those locations, the DCMA requests for audit support should have been
based on joint planning with DCAA.

         Coordination to Determine the Scope of Review. DCMA did not
meet or coordinate with DCAA prior to issuing requests for audit. Where
meetings took place, they were held the first day of the DCMA field visit, per
DCMA One Book guidance. The following are examples of inadequate or no
coordination:

       •   The CPSR team performed a review at the Northrop Grumman
           Corporation without notifying the resident audit office or inviting an
           auditor to be part of the review team. The DCAA auditors learned
           several months later that the CPSR team had completed a review and
           had to conduct a separate audit to address additional audit areas.

       •   At one DCMA field office, the Chief of the Corporate Support Team
           had prepared a standard letter to respond to DCAA notices of planned
           audits of purchasing system internal controls or requests for
           information. The letter reiterated the DFARS 244.301 guidance that
           members of other organizations such as audit or program management
           activities should not conduct separate reviews but may participate in a
           future review to be conducted for the ACO by the CPSR team. The
           standard letter was sent without consideration of why the information
           request was made. For example, in one case, a DCAA field audit
           office inquired from the cognizant DCMA field office whether a CPSR
           was planned in the near future and explained the reasons why an audit
           of the contractor’s purchasing system internal controls was considered.
           The DCMA responded with the standard letter, which did not ask
           DCAA to explain or justify the need for an audit at an earlier time.



                                    6
       •   At another DCMA office, five CPSR team complaints concerned
           perceived DCAA initiations of reviews that appeared to duplicate
           CPSRs and resulted in findings that, occasionally, were contrary to the
           DCMA findings. The five complaints were unsupported and were the
           direct result of inadequate communication and coordination between
           the two agencies.

DCAA Planning and Coordination Requirements. If no CPSR is scheduled,
the CAM, Chapter 5-603, “General Audit Policy,” requires the auditor to perform
a purchasing system review at a major contractor location within the normal cycle
(2 to 4 years) for accounting and management systems audits. The CAM also
requires the auditor to coordinate with the ACO before initiating a review of the
contractor’s purchasing system. Eleven of the 12 audits evaluated at 6 DCAA
field audit offices required coordination with the ACO or CPSR team. Six of the
11 audits did not fully document the extent of coordination or any failed attempts.
The other five audits contained sufficient information to support DCAA
coordination efforts with the ACO or CPSR team.

The CAM audit guidance conflicts with instructions in the DCAA Audit Program
for Purchasing Controls. The CAM, Chapter 5-603, “General Audit Policy,”
advises that if no CPSR is scheduled within the DCAA normal cycle for systems
audits (2 to 4 years), the auditor should perform a purchasing system internal
control review in accordance with CAM guidance. However, the audit program
states that if no CPSR review is scheduled in a reasonable time, and the auditor
feels the Government is at risk, the concerns should be elevated to the regional
offices prior to any audit effort.

Although DCMA had not scheduled a review, a supervisor at one of the six field
offices had followed the CAM instructions and proceeded with a planned audit
without contacting the regional office. To avoid confusion, the CAM guidance
should be amended to conform to the instructions in the audit program.

Differences in DCMA and DCAA Planning and Coordination Guidance. The
DCMA and DCAA guidelines on coordination of purchasing system review
activities differed. The CPSR Guidebook explains that CPSR teams may reduce
DCAA on-site audits by sharing CPSR work papers with auditors planning to
conduct internal control system audits. However, the guidance does not stress the
importance of auditor participation in a joint review to address audit concerns and
avoid duplication, nor does it explain the kind of work papers that the auditor
would need to reduce on-site audits. The emphasis is different in the DCAA
CAM, Chapter 5-1302.3, “Auditor Participation on CPSR Teams.” CAM stresses
that the auditor and the PSA have related responsibilities; therefore, it is
imperative that they coordinate and correlate their activities.

Examples of Successful Coordination. Excellent examples of successful
coordination between DCMA and DCAA existed at three contractor locations. At
two of the locations, Lockheed Martin Space Systems, Mississippi, and General
Dynamics Advanced Technology Systems, North Carolina, the auditor and the
PSA used the DCAA audit program to divide the work to be performed with
excellent results. The DCAA standard audit program covers all areas addressed
by the CPSR team as well as electronic data processing not reviewed as part of a
CPSR. The joint use of the same program ensured that duplication did not occur


                                     7
   while the auditor and the PSA could each accomplish their review objectives. At
   Lockheed Martin Federal Systems, Virginia, a team composed of the PSA, DCAA
   auditor, and contractor internal auditors compared purchasing system review
   procedures to avoid duplication, using the DCAA audit program as a baseline.
   The team examined 42 review elements and determined that 30 elements
   contained overlapping procedures for review of contractor policies and
   procedures, purchase order and subcontract clauses, and management of
   purchasing. According to the DCMA team participant, the extensive pre-planning
   effort benefited only the review performed at Lockheed Martin Federal Systems,
   and lessons learned were not incorporated into the DCMA guidance. Further, in
   each of the three cases, either the ACO, the auditor, or the contractor had
   coordinated the effort. Improved DCMA and DCAA guidance should aid the
   CPSR team leader in initiating similar cooperation.


Summary
   The DCMA CPSRs and the DCAA audits of purchasing system internal controls
   are two reviews of the same processes. Each is for equally important but different
   purposes. Joint annual (or other cycle) planning for the reviews with coordinated
   implementation of the plans would provide more efficient and effective use of
   DCMA and DCAA resources. In the past decade, DoD has reduced the
   acquisition work force by about 50 percent. The DCMA CPSR staff has been
   reduced by 69 percent, whereas the DCAA staff reduction since 1990 is about
   44 percent. Because of the reduction in the number of DCMA and DCAA staff to
   perform the CPSRs in recent years, joint planning becomes critical to effectively
   use the organizations’ resources. DCMA and DCAA should together review their
   processes to determine how best to plan, coordinate, and accomplish their
   reviews.

   A DCMA and DCAA joint process for planning and coordinating performance of
   purchasing system reviews should correct problems identified in this report:

          •   Inconsistent dissemination of DCMA review schedules to DCAA;
          •   Requests for audit services not tailored to the DCAA audit
              environment where internal control systems audits must be performed;

          •   Insufficient CPSR Guidebook explanations of auditor need to
              participate in a CPSR to obtain purchasing system information and
              plan related audits;

          •   Inconsistent DCAA guidance for coordination with ACOs and the
              CPSR team; and,

          •   Inadequate support for DCAA reliance on the work of others
              (finding B).

   Further, a jointly developed DCMA/DCAA review program could facilitate
   coordination of review coverage and avoid duplication and overlap during CPSRs
   and audits of purchasing system internal controls. A jointly performed review


                                       8
    could also expand the review coverage. The DCAA audit program includes
    procedures that do not overlap or duplicate DCMA reviews. The audit program
    requires the auditor to develop a sufficient understanding of the contractor’s
    electronic information and communication processes to identify significant
    classes of transactions and how they are processed, controlled, and reported.
    Auditors also perform transactional testing using statistical sampling methods.
    The insights gained from audit tests of the electronic data processing system
    should make the CPSR more useful to ACOs.


Management Comments on the Finding and Evaluation
 Response
    DCMA Comments on Audit Participation in a Review. The Executive
    Director, Contract Management Operations, concurred with the finding and stated
    that the DCMA Directive 1 (the One Book), Chapter 7.4, Contractor Purchasing
    System Review, contains guidance on audit participation, but said that the
    guidance was adequate.

    Evaluation Response. We disagree that existing guidance is adequate. Although
    the guidance encourages a coordinated team approach to promote the sharing of
    data and reduction of duplicate effort, effective teamwork did not occur. The
    guidance does not explain that coordination with DCAA is necessary to avoid
    duplicative reviews and address the concerns of both organizations. Also, sharing
    annual schedules after the fact, does not ensure the most efficient use of
    resources. A joint planning process would be more efficient.


Recommendations, Management Comments, and Evaluation
  Response
    A. We recommend that the Director, Defense Contract Management Agency
    and the Director, Defense Contract Audit Agency jointly reengineer their
    processes and procedures for performing reviews and audits of contractor
    purchasing systems to establish joint planning and coordination processes
    that will more effectively meet the needs of both organizations, avoid
    duplication, and effectively leverage the resources of both organizations. The
    review processes and procedures should address the specific deficiencies
    identified in this report.

    DCMA Comments. The Executive Director, Contract Management Operations,
    DCMA concurred and stated that Directive 1, Chapter 7.4, and the DCAA CAM
    provide sufficient procedures for planning and coordination of reviews. DCMA
    will issue an Information Memorandum to re-emphasize the need for such
    coordination when performing a CPSR.

    Evaluation Response. Although the Executive Director concurred, the
    comments are not responsive. Issuing an Information Memorandum to emphasize
    existing guidance is not sufficient. We recommended that the Director, DCMA,


                                        9
and the Director, DCAA, jointly reengineer their processes and procedures for
performing reviews and audits of contractor purchasing systems. We included a
statement that the specific deficiencies identified in the report should be
addressed. The intent of the recommendation will therefore be implemented if the
DCMA Directive 1 is amended to fully address auditor participation in a CPSR.
A final response should include an agenda for coordination with the DCAA and
an action plan for revising the Directive.

DCAA Comments. The Assistant Director, Policy and Planning, DCAA
concurred and will coordinate with DCMA to re-evaluate its planning and
coordination processes for conducting audits of contractor purchasing systems
and related internal controls to ensure the processes will facilitate sufficient audit
coverage and avoid duplication. By January 31, 2003, DCAA will issue a
Memorandum for Regional Directors, after coordination with DCMA, to provide
audit guidance to field auditors on the enhanced coordination and planning
process. The guidance will include a reminder for auditors to coordinate with
DCMA when initiating a purchasing system review and a requirement for auditors
to document the results of this coordination in the working papers. In April 2003,
DCAA will also make any necessary revisions to the standard audit program,
Reviewing and Reporting on Contractor Purchasing System and Related Internal
Controls. Necessary revisions to the guidance contained in the Contract Audit
Manual will be made for the July 2003 update.

Evaluation Response. The Assistant Director’s proposed action plan is
acceptable. We believe that DCMA and DCAA, working together, can develop
the most effective processes for both organizations.


.




                                     10
           B. Performance of Reviews
           Although the DCMA PSAs adequately covered prescribed review areas
           and supported reported findings, risk assessments and the documentation
           of work performed during the reviews could be improved. The conditions
           occurred because the DCMA One Book guidance was inadequate. In
           addition, auditors relied on work performed by the CPSR teams without
           sufficient justifications, which was not in compliance with GAGAS and
           DCAA audit guidance.

           As a result of inconsistent risk assessments, reviews may not be scheduled
           when needed or unnecessary reviews may be performed. Auditor
           noncompliance with GAGAS when relying on work performed by others
           lessened the usefulness of the audit report.


Risk Assessments
    The DCMA One Book, Chapter 7.4, “Consent to Subcontract/CPSRs,”
    Attachment 3, contains the CPSR Guidebook, which explains that the ACO, in
    consultation with the CPSR Team, should manage the risk associated with
    contractor purchasing systems based on two risk assessments. The initial risk
    assessment determines the need for an on-site CPSR. The CPSR Guidebook
    identifies 13 risk factors to be considered during the initial assessment and
    provides 2 sample formats to be used in the rating process. One format assigns a
    numerical rating to the 13 risk factors based on specific conditions. The other
    format allows for a narrative on each factor. When a CPSR is required, a second
    risk assessment determines the scope of the review. The CPSR Guidebook does
    not explain what to consider in the second risk assessment.

    DCMA also has a Risk Assessment Management Program (RAMP), which is an
    on-line system for assessing elements of a contractor’s business and financial
    services, including the purchasing system. The guidance on the RAMP is
    included in the DCMA One Book, Chapter 3.1, “Supplier Risk Management,”
    which requires the operations team or functional specialist to assign a risk rating
    to significant elements of contractor financial and business systems, including the
    purchasing system. The CPSR Guidebook does not clarify how the RAMP
    ratings relate to the initial assessments that identify contractors to be reviewed and
    the second assessments that should determine the scope of the individual reviews.

    Performance of Risk Assessments. Although the CPSR Guidebook discusses
    the need to perform initial and second risk assessments, DCMA only completed
    initial assessments, which were used for dual purposes. Thirty-three initial risk
    assessments at two of three DCMA offices visited were adequately documented
    with explanations for the assigned risk ratings. However, the third location did
    not complete initial risk assessments to determine whether a CPSR was required
    but scheduled reviews for all contractors that met the threshold on a 3-year cycle.
    The two offices that completed initial risk assessments used them to schedule
    CPSR reviews and to plan the scope of the reviews with the ACOs. At the third



                                         11
office, at least one CPSR should not have been performed because the contractor
no longer met the threshold. The analyst was half way through the review before
realizing that.

One of the two offices that completed initial risk assessments used four different
methods, including the CPSR Guidebook sample format, the RAMP system, and
two forms designed by the CPSR team chief to adjust for omissions or
inadequacies in the CPSR Guidebook and the RAMP. For one contractor, the
analyst used more than one risk assessment format with conflicting results.

        Guidance on Initial Assessments. The CPSR Guidebook instructions for
performing the initial risk assessment could be improved. The numerical rating
from 1 (low risk) to 5 (high risk) assigned to the 13 risk factors shown in 1 of the
2 sample formats in the CPSR Guidebook Appendix D should be reevaluated.
For example, 4 of the 13 factors assign only a medium risk to a new contractor
with no status history. Therefore, the calculated weighted average may yield a
medium, or lower, risk rating and indicate no immediate need for a review. A
new contractor with no status should be assigned a high risk to ensure that a
CPSR is included in the review plan. The second format allows for a narrative to
be used instead of a rating factor. However, the illustration shows only the first 3
of the 13 risk factors to be rated and does not clarify that an assessment should be
made for all 13 factors. As a result, at least one analyst believed the second
format only covered three factors and was not useful.

        Guidance on Second Assessments. The instructions related to the second
risk assessment could also be improved. The second assessment should be used
to determine where to concentrate the review effort and to determine how much
transactional testing may be necessary. In a discussion of the second risk
assessment, the CPSR Guidebook instructs the CPSR specialist to identify key
processes, defined as those that can adversely affect contract performance, cost, or
schedule. At a minimum, the CPSR Guidebook requires an assessment of four
specific key processes that are incorporated into the RAMP system:

       •   Contractor vendor rating;
       •   Contractor best value;

       •   Contractor make/buy; and,

       •   Contractor internal purchasing system audits.

Field personnel did not agree that the mandatory four key processes were the most
critical to be covered in all reviews. Field personnel believed other processes
would yield more accurate and relevant risk information. One manager identified
the following processes as more indicative of risk inherent in the purchasing
system:

       •   Source selection (including vendor rating and competitive
           procurements);

       •   Contractor performance of price and cost analysis of vendors;



                                     12
           •   Contractor compliance with public laws; and,

           •   Terms and conditions of the contract (for example, flow down clauses,
               restrictive language, and advance consent requirements).

    The CPSR Guidebook should emphasize the difference between the risk to
    consider for planning the annual workload and the risk to consider that is inherent
    in contractor internal controls when planning the CPSR. Further, rather than
    mandate the coverage of four specific key processes, the CPSR Guidebook should
    provide criteria to assist analysts in identifying key processes for risk assessments
    and incorporation into a review plan. Where no knowledge exists to support a
    low or medium risk assessment, the guidance should instruct analysts to assign a
    high risk and to adjust the risk factors based on actual review results.


Documentation of Review Procedures
    The DCMA One Book guidance includes only limited instructions for
    documentation of review efforts. The DCMA One Book, Chapter 7, section 4.6.5,
    “Risk Documentation,” states that the operations teams or functional specialists
    must record and maintain documentation of risk assessments, risk handling, and
    risk monitoring results, as applicable. However, the guidance contains no
    requirements that the reviewers document the methods and techniques used in the
    reviews performed based on the risk assessments. Although the DCMA One
    Book explains that the CPSR teams may reduce DCAA on-site audits by sharing
    CPSR work papers, it contains no instructions or descriptions of what type of
    work papers may be useful to that end.

    Documentation to Support Findings. The 13 CPSR files did not contain
    documentation of analytical procedures, sampling methods, or information
    regarding the criteria used to evaluate contractor-provided data other than
    purchase orders. Some documentation existed to explain the criteria used in the
    review of purchase orders, which was the only area subject to transactional
    testing. However, the sampling methodology and trend analyses related to
    purchase orders were not explained.

    Without sufficient documentation to describe methods and techniques, including
    criteria used in the reviews, considerable effort must be expended to reconstruct
    and understand what the analysts have covered. The success of this effort
    depends on the availability of the analyst who has performed the review.
    Adequate documentation would ensure that the personal assistance of an analyst
    is minimized. The existence of documentation would also facilitate on-the-job
    training of new employees.




                                         13
Auditor Reliance on Work Performed by Others
    DCAA may avoid duplicating review procedures by relying on work performed
    by others, in this case the DCMA CPSR team, and still meet the audit objectives.
    GAGAS 6.14 through 6.16 on “Considering Others’ Work” requires auditors to
    perform procedures that provide a sufficient basis for that reliance. Auditors can
    determine the sufficiency, relevance, and competence of other auditors’ evidence
    by reviewing their report, audit program, or working papers or making
    supplemental tests of their work, if necessary. Auditors face similar
    considerations when relying on the work of nonauditors. GAGAS 6.16 requires
    the auditors to obtain an understanding of the methods and significant
    assumptions that nonauditors used.

    CAM 5-603 specifies that it is not the auditor’s responsibility to review the
    quality of the CPSR team’s work. However, the auditor must understand the
    scope of the work performed in order to determine whether additional audit
    procedures are necessary to satisfy any DCAA concerns.

    DCAA Auditor Reliance on Work of Internal Auditors and Nonauditors. Of
    the nine audits that required coordination with DCMA, six did not document how
    the auditor relied on work performed by the CPSR team or internal auditors. The
    auditor relied on both the contractor’s internal auditors and the CPSR team in one
    of the six audits, on contractor internal auditors in two audits, and on the CPSR
    team in three audits. None of the six audits included sufficient explanations to
    support reliance on the internal auditors and the CPSR team. For example:

           •   In one of the audits, the auditor incorporated CPSR report findings into
               the DCAA audit report, recording 80 hours for audit program
               procedures that were not performed but merely referred to the CPSR
               team with no additional explanations or supplemental tests to justify
               reliance.

           •   In another example, the auditor included work papers from the internal
               audit but did not document the internal auditor’s qualifications and
               independence.

    Although internal auditors may have work papers that enable an auditor to
    determine the sufficiency, relevance, and competence of the auditor’s work, work
    papers alone do not provide a basis for reliance. The auditor must also show that
    the internal auditors are qualified and independent.

    The CPSR team’s documentation may not be sufficient to enable an auditor to
    render an audit opinion on the evidence supporting the report. In that case, the
    auditor should attempt to understand the review methods and techniques through
    discussions with the PSAs and, if necessary, perform supplemental tests to
    support audit reliance on the CPSR team’s work.




                                        14
    Results of Related Quality Assurance Reviews. The DCAA completed an
    internal quality assurance review of internal control systems audits, including
    audits of purchasing system internal controls, in FY 2000. The internal review
    disclosed, among other findings, that auditors relied on internal audit results
    without adequately determining the sufficiency/reliability of the internal auditors
    efforts. Because DCAA took corrective actions, we are making no further
    recommendations concerning auditor reliance on work performed by others.


Recommendations and Management Comments
    B.1. We recommend that the Director, DCMA clarify guidance on risk
    assessments. At a minimum, the guidance should:

           a. Clearly differentiate between risks to consider for annual planning
    purposes and the risks to consider when planning the scope of a specific
    review;

          b. Advise that a high risk factor should be assigned until adequate
    information exists to support a medium or low risk; and,

           c. Amend instructions to base the identification of key processes on
    an understanding of the contractor’s system rather than four specific
    requirements.

    Management Comments. The Executive Director, Contract Management
    Operations, DCMA concurred and plans to revise the One Book to correct the
    disconnect between risk planning and risk rating. The DCMA will also ensure
    that the One Book provides instructions that will allow the performance of a
    CPSR for qualifying contractors when lack of information inhibits a risk rating to
    be assigned. Key processes listed in the Directive 1, Chapter 7.4, Paragraph
    4.6.1.3 will be revised to include more appropriate processes.

    B.2. We recommend that the Director, DCMA instruct analysts to improve
    documentation in files in sufficient detail to enable a reviewer to understand
    the methods, techniques, and criteria used to support the findings without
    the personal assistance of the analyst.

    Management Comments. The Executive Director, Contract Management
    Operations, DCMA concurred and will issue an Information Memorandum to re-
    emphasize the need for adequate and proper documentation of files.




                                         15
Appendix A. Scope and Methodology
   We visited three DCMA field offices that performed risk assessments and CPSRs
   and seven DCAA field offices that provided support to DCMA on request or
   audited purchasing system internal controls. An additional DCAA office not
   visited provided information on seven DCMA requests for limited audit services.
   We based our review on the FAR and DFARS requirements for consent to
   subcontract and CPSRs, the DCMA One Book, including the CPSR Guidebook,
   for performing risk assessments and conducting CPSRs, and the DCAA CAM
   guidance for auditors.

   At the DCMA field offices, we used the following methodology.

       •   To determine the adequacy of planning procedures, we evaluated the
           criteria used in 33 risk assessments and determined whether the results
           were used to plan subsequent CPSRs. We also interviewed ACOs in
           regard to the results of CPSRs and risk assessments.

       •   To evaluate the overall adequacy of the CPSRs, we reviewed the file
           documents supporting 13 reviews and interviewed analysts and
           supervisors to determine the scope of review, the methods, and
           techniques used in conducting the CPSRs. We compared the resultant
           coverage to the One Book requirements. We also received a
           demonstration of the new CPSR software program and discussed the
           benefits and deficiencies of the new software with the analysts.

       •   To evaluate the adequacy of current guidance, we interviewed analysts
           and supervisors and reviewed superseded DFARS instructions for
           performing CPSRs.

       •   To evaluate the adequacy of support for findings in the CPSR reports, we
           reviewed contractor-provided data, including written purchasing policies
           and procedures, sales, organizational and purchase order file information;
           handwritten question sheets, checklists used by the analysts during the
           on-site review of purchase order files, and printouts of data from software
           used during the review.

       •   To evaluate the use of audit support services, we compared the scope of
           review specified in 17 DCMA requests.

   At the DCAA field audit offices, we verified whether an audit was performed at
   the request of DCMA or set up to examine the contractor’s purchasing system
   internal controls. We used the following methodology to evaluate the
   performance of the audits.




                                       16
    •   To evaluate the adequacy of audits performed in response to DCMA
        requests, we reviewed seven audit files at four DCAA field offices,
        including three requests that DCAA incorporated into an expanded audit
        of the contractor’s purchasing system internal controls. We reviewed the
        work papers completed to respond to the request.

    •   To evaluate the adequacy of DCAA audits of purchasing system internal
        controls, we reviewed audit files for documentation of planning, risk
        assessments, coordination with the ACO and CPSR teams, and extent of
        reliance on work performed by others. We used a quality assurance
        checklist developed by DCAA for evaluation of internal control systems
        audits.

    •   To supplement audit documentation and determine whether unrecorded
        discussions had been held with the ACO and the CPSR teams, we
        interviewed auditors and supervisors. We also contacted ACOs and
        analysts per telephone concerning meetings or conversations to
        coordinate the audits evaluated at the DCAA sites visited.

Use of Computer-Processed Data. We did not rely on computer-processed data
for the evaluation of DCMA performed risk assessments and CPSRs. We relied
on computer-processed data from the DCAA Management Information System to
identify field audit offices performing purchasing system reviews. Although we
did not perform a formal reliability assessment of DCAA computer-processed
data, we determined that the assignment numbers, dollars examined, and
questioned costs for the selected audit assignments generally agreed with the
computer-processed data. We did not find errors that would preclude use of the
data to meet the evaluation objectives or that would change our report
conclusions.

Universe and Sample. We judgmentally selected three DCMA field offices and
eight DCAA audit offices from three regions. The DCMA office selections were
based on our analysis of DCMA workload for FYs 1998 through 2000 and
proximity to DCAA field offices. We evaluated 33 of 55 risk assessments and 13
of 76 CPSRs completed during the time period selected. To select the CPSRs, we
considered the type of review performed (comprehensive or followup) and
whether the review resulted in ACO approval or disapproval of the contractor’s
purchasing system.

The DCAA office selections were based on an analysis of data extracted from the
DCAA Management Information System from October 1, 1997, through
September 10, 2001. We were unable to determine how many of the audits
performed during the period were requested by DCMA and how many DCAA
initiated because all audits were performed under the same DCAA activity
code, 12030. However, we selected six field audit offices with large audit
assignments, as indicated by the number of hours recorded in the Information
System, and two offices in close proximity to DCMA with several small audit
assignments. The 6 offices had completed 12 audits of purchasing system internal
controls from October 1, 1997, through September 10, 2001, which we evaluated.




                                   17
    We also obtained copies of DCMA audit requests from two audit offices in close
    vicinity to DCMA field offices and visited one of the two audit offices. The
    8 offices had received 17 DCMA requests for audit support in a CPSR, which we
    reviewed.

    Evaluation Dates and Standards. We performed this evaluation from May 2001
    through July 2002, according to standards issued by the Inspector General of the
    Department of Defense.


Management Control Program Review
    The DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require the Department of Defense organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy of
    controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DCMA management controls over CPSRs. Specifically, we
    reviewed the management controls for maintaining a complete and accurate CPSR
    database and ensuring the timely and appropriate scheduling of reviews based on
    risk assessments.

    We reviewed the DCAA management controls over purchasing system internal
    control reviews. Specifically, we reviewed management controls over audit
    programs, documentation of coordination with ACOs and CPSR teams, and audit
    reporting.

    Because we did not identify a material weakness, we did not assess managements’
    self-evaluations.

    Adequacy of Management Controls. Management controls were adequate in
    that we identified no material management control weaknesses.


Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.




                                        18
Appendix B. Comparison of Review Coverage
         The table compares the planned audit coverage in the DCAA standard audit
         program to observed CPSR coverage.


         DCAA Audit Procedures                     DCMA CPSR Team Procedures                 Potential
                                                                                             Overlap
      PRELIMINARY AUDIT EFFORT:
Obtains pertinent contractor data from          Obtains pertinent information from the          Yes
permanent files and the contractor. Conducts    contractor. Conducts entrance
entrance conference.                            conference.
        CONTROL ENVIRONMENT:
Reviews organization structure and overall      Reviews organization structure,                Partial
control environment of company, drawing         contractor’s conflict of interest form and
from prior reviews and experience with          any prior CPSRs.
contractor.
  CONTRACTOR’S RISK ASSESSMENT:
Obtains understanding of contractor’s           Reviews management reports, internal            Yes
management processes in handling risk           audit reports, and associated policies and
associated with the purchasing system.          procedures such as rotation of buyers.
  INFORMATION & COMMUNICATION:
Obtains understanding of contract cost data     Not performed by the CPSR analyst.              No
processes and traces selected transactions
through the manual or electronic data
processing system.
               MONITORING:
Obtains understanding of management and         Reviews management reports, and                 Yes
supervisory activities, internal audit          internal audit reports.
involvement, and external party involvement
in monitoring process.
       CONTROL OBJECTIVES AND
                ACTIVITIES:
Reviews training, policies & procedures,        Reviews policies & procedures using             Yes
purchase orders & subcontract clauses,          FAR checklist, training records for
purchase file data, source selection process,   purchasing personnel, purchase order
pricing & negotiation, subcontract award and    files, certifications and forms, source
administration.                                 selection data, price analysis data, and
                                                subcontract awards.
    ASSESSMENT OF CONTROL RISK:
Analyzes and summarizes results of audit and    Analyzes results of review and                  Yes
determines audit opinion on adequacy of the     determines approval/withheld
system.                                         recommendation for ACO.
        SUMMARY AUDIT STEPS:
Prepares audit report for ACO.                  Prepares report for ACO.                        Yes




                                                   19
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)/Chief Financial Officer

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Contract Audit Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          20
Defense Contract Audit Agency
Comments




                     21
22
Defense Contract Management Agency
Comments




                    23
24
25
26
27
28
Team Members
The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of
the Assistant Inspector General for Auditing of the Department of Defense
prepared this report. Personnel of the Office of the Inspector General of the
Department of Defense who contributed to the report are listed below.

Wayne C. Berry
Madelaine E. Fusfield
Patricia A. Bartron
Krista S. Gordon
Ashley A. Harris
